No. 20–6990

IN THE

SUPREME COURT OF THE UNITED STATES

ALLYN AKEEM SMITH,
PETITIONER,
-vsSTATE OF ARIZONA,
RESPONDENT.
STATEMENT OF MAILING

BRIEF IN OPPOSITION
MARK BRNOVICH
ATTORNEY GENERAL
BRUNN (“BEAU”) W. ROYSDEN III
SOLICITOR GENERAL
LACEY STOVER GARD
DEPUTY SOLICITOR GENERAL/SECTION
CHIEF FOR CAPITAL LITIGATION
NATE CURTISI
ASSISTANT ATTORNEY GENERAL
ELIZABETH BINGERT
ASSISTANT ATTORNEY GENERAL
(COUNSEL OF RECORD)
2005 N. CENTRAL AVENUE
PHOENIX, ARIZONA 85004
NATE.CURTISI@AZAG.GOV
CLDOCKET@AZAG.GOV
TELEPHONE: (620) 542–4686
ATTORNEYS FOR RESPONDENTS

Elizabeth Bingert, states that she is a member in good standing of the United
States Supreme Court Bar. That on March 1, 2021 she caused to be e-filed and
deposited in a FedEx envelope, shipping pre-paid, Original + 10 copies of the BRIEF
IN OPPOSITION in Allyn Akeem Smith v. State of Arizona, to:
THE HONORABLE SCOTT S. HARRIS
United States Supreme Court
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
and caused to be e-mailed and deposited in a United States Post Office, first-class
postage prepaid, and (3) additional copies, addressed to:
MIKEL STEINFELD
Maricopa County Public Defender’s Office
620 West Jackson, Suite 4015
Phoenix, Arizona 85003
Mikel.Steinfeld@maricopa.gov
All parties required to be served have been served.
_______________
S/ELIZABETH BINGERT

2

